No.
In The

Supreme Court of tije Untteto States;
Lourdes Fontanillas L6pez,
Petitioner,
v.
Morell BauzA Cartagena & Dapena, LLC, et al.
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that this Petition for a
Writ of Certiorari contains 8,988 words, excluding the parts of the Petition that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 1, 2019.

Lourdes Fontanillas Lopez
Petitioner Pro Se
c/o Modesto Bigas Mendez
Modesto Bigas Mendez
Law Office
P.O. Box 7462
Ponce, PR 00732-7462
Tel.: (787) 844-1444
Fax: (787) 842-4090
modestobigas@yahoo.com

